         OFFICE OF INSPECTOR GENERAL 




                                 Catalyst for Improving the Environment


Followup Review




       Office of Underground Storage Tanks
       Has Improved Contract Administration,
       But Further Action Needed

       Report No. 2006-P-00012


       February 28, 2006
Report Contributors:            Doug LaTessa
                                John Trefry




Abbreviations

EPA                Environmental Protection Agency
EPM                Environmental Program Management
LUST               Leaking Underground Storage Tank
OIG                Office of Inspector General
OUST               Office of Underground Storage Tanks
                       U.S. Environmental Protection Agency                                            2006-P-00012

                                                                                                    February 28, 2006

                       Office of Inspector General


                       At a Glance 

                                                                          Catalyst for Improving the Environment


Why We Did This Review           Office of Underground Storage Tanks Has Improved 

                                 Contract Administration, But Further Action Needed

We conducted this followup
review on a 2004 audit of         What We Found
contract administration by the
Environmental Protection         Of the nine corrective actions OUST proposed as a result of the previous review, it
Agency’s (EPA’s) Office of       successfully implemented eight actions. In particular, OUST stopped obligating
Underground Storage Tanks        funds to contracts without identifying corresponding work. We commend OUST
(OUST). We sought to             for successfully implementing these actions. However, while OUST provided
determine whether OUST took      Contract Management Manual training for its staff, as agreed, it did not have all
sufficient actions regarding     required people attend the training.
proper charging to
appropriations, avoiding the     During our followup review, we noted problems regarding properly charging to
loss of funding due to           appropriations. Our prior report had concluded that $134,000 in Leaking
expiration of funds, and         Underground Storage Tank (LUST) funds had been obligated to a contract but not
obligating funds with            expended, and that amount had increased to $395,000 by March 2005. That
corresponding work               amount represented potential missed opportunities for achieving environmental
assignments.                     improvements. As a result of our followup review, OUST initiated a contract
                                 modification in November 2005 to deobligate and recertify these funds.
Background
                                 Also, OUST had not taken sufficient corrective action regarding $140,004 in work
On March 31, 2004, we issued     paid for with LUST funds that should have been paid with Environmental
a report, The Office of          Program Management funds. OUST initiated corrective action in February 2004,
Underground Storage Tanks:       but erroneously used future year funds to pay for prior year services. For
Contract Administration and      example, OUST paid for Fiscal Year 2002 services with Fiscal Year 2003/2004
Performance Measurement          funds. OUST initiated a modification in October 2005 to correct this situation.
Concerns (2004-P-00014).
This report disclosed OUST
had inappropriately used and      What We Recommend
inefficiently managed contract
funds.                           We recommend that the OUST Director have staff regularly query EPA’s financial
                                 systems to monitor the status of funds obligated, to enable deobligations when
                                 appropriate. We also recommend that the Director direct staff to not use future
                                 year appropriations to pay for services rendered in prior years, and to require that
For further information,         all appropriate staff attend training in appropriations. OUST concurred with our
contact our Office of            recommendations and agreed to monitor the status of its funds obligated to
Congressional and Public         contracts on a monthly basis and to provide direction and training to its staff.
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060228-2006-P-00012.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                        February 28, 2006

MEMORANDUM

SUBJECT: 	 Office of Underground Storage Tanks Has Improved
           Contract Administration, But Further Action Needed
           Report No. 2006-P-00012

FROM:          Carl A. Jannetti
               Director, Contract Audits

TO:	           Cliff Rothenstein
               Director, Office of Underground Storage Tanks

This report is a followup review of the contract administration issues discussed in Environmental
Protection Agency (EPA) Office of Inspector General (OIG) Report No. 2004-P-00014, The
Office of Underground Storage Tanks: Contract Administration and Performance Measurement
Concerns, issued March 31, 2004.

This followup report contains findings that describe the problems the OIG has identified and
corrective actions the OIG recommends. This report represents the opinion of the OIG and the
findings contained in the report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

Action Required

Since you concurred with our recommendations and agreed to implement corrective actions, a
report of action is not required. Therefore, we have closed this report in our tracking system as
of the date of issuance. We held an exit conference on February 21, 2006 with the Office of
Underground Storage Tanks (OUST). As a result of that conference, OUST agreed to send
select staff to an Appropriations Law course.

We have no objections to the further release of this report to the public. For your convenience,
this report will be available at http://www.epa.gov/oig/.

Should you have any questions regarding this report, please contact me at (215) 814-5800 or
Jannetti.carl@epa.gov, or John Trefry, Assignment Manager, at (202) 566-2474 or
trefry.john@epa.gov.
Purpose
We conducted this followup review on the contract administration issues discussed in a prior
Environmental Protection Agency (EPA) Office of Inspector General (OIG) report, The Office of
Underground Storage Tanks: Contract Administration and Performance Measurement Concerns
(2004-P-00014), issued March 31, 2004. In response to the report, EPA’s Office of
Underground Storage Tanks (OUST) proposed nine corrective actions to better use and manage
contract funds. Our followup objectives were to determine whether OUST, with respect to the
two contracts previously reviewed, successfully implemented policies and procedures to:

   •	 Ensure the appropriateness of charges to the Leaking Underground Storage Tank (LUST)
      and Environmental Program Management (EPM) appropriations;
   •	 Avoid loss of funding due to expiration of funds; and
   •	 Avoid obligating funds to contracts without identification of corresponding work 

      assignments. 


Scope and Methodology
We performed this followup review from September to November 2005, in accordance with
Government Auditing Standards issued by the Comptroller General of the United States. Our
followup review included a site visit to OUST headquarters offices, where we met with OUST
management and staff.

To determine the extent to which corrective actions had been implemented, we interviewed the
OUST Project Officer, staff from the Office of Acquisition Management, and staff from the
Office of General Counsel, and reviewed supporting documentation. To determine the amount
of expired EPM appropriations and unliquidated LUST funds, we queried EPA’s Financial Data
Warehouse and confirmed the results with the Project Officer. We also queried the Financial
Data Warehouse to determine the appropriations used to pay invoices.

To determine whether OUST had continued the practice of obligating funds to contracts without
identifying corresponding work (parking funds), as well as implementing OUST’s “pay as you
go” process (fund work assignments and task orders as they are issued), we queried the Financial
Data Warehouse to identify the obligations made to the contracts since the last review. We then
reviewed corresponding contract modifications, work assignments, statements of work, and
independent government cost estimates for each of those work assignments.

Our followup review, including our review of management controls, was limited to evaluating
the proposed corrective actions for OUST’s two contracts identified in the prior review. As
such, a complete review of the applicable management controls related to OUST’s contract
administration was not relevant to our evaluation.

Results of Review
Of the nine corrective actions OUST proposed as a result of the previous review, OUST
implemented eight actions. In particular, regarding the third objective of this followup review,


                                                1

OUST stopped obligating funds to contracts without identifying corresponding work (parking
funds), and implemented its “pay as you go” process. Also, OUST successfully implemented
new invoicing requirements for contractors and new funding processes for contracts, and
improved its invoice payment process. We commend OUST for successfully implementing
these actions. However, while OUST provided contract administration training for its staff, as
agreed, it did not have all required people attend the training. Contract Management Manual
training was provided to work assignment managers but not Project Officers and senior level
managers within OUST, even though OUST noted in its corrective action plan that all would be
required to take the training.

Regarding our followup objectives on the appropriateness of charges to appropriations and
avoiding the loss of funding due to expiration of funds, we noted that while OUST had taken
corrective actions, some problems remained. The prior OIG report concluded that $134,000 of
LUST money obligated to a contract had not been expended and would be unavailable without
deobligation and recertification. These obligations increased to over $395,000 by March 2005,
because funds remaining on completed work assignments were not used or deobligated. This
amount represents potential missed opportunities for achieving environmental improvements.
As a result of our followup review, OUST initiated a contract modification in November 2005 to
deobligate and recertify these funds. Details on the accumulation of the obligations subsequent
to our prior review are shown in the following table.


Unexpended LUST Funds Obligated to Contract
       Month               Unexpended            Cumulative            Months
      Obligated              Amount               Amount                Idle*
 June 2000                   $103,043              $103,043               59
 August 2000                   36,288               139,331               57
 September 2000               140,004               279,335               56
 August 2003                     3,127              282,462               21
 December 2003                  89,369              371,831               17
 March 2004                      1,804              373,635               14
 November 2004                     410              374,045                 6
 March 2005                    21,045               395,090                 2
* Months Idle: The number of months from the month after the obligation was made
  through the end of the contract, May 2005.



Additionally, the prior OIG report had identified $140,004 of LUST funds that were
inappropriately used to pay invoices that should have been paid with EPM funds. OUST
initiated a contract modification in February 2004 to reverse these payments. However, OUST
did not have sufficient EPM funds for the fiscal years in which the original invoiced costs were
rendered. Therefore, when OUST attempted to correct the problem previously reported, it
erroneously paid for Fiscal Year 2002 services with Fiscal Year 2003/2004 EPM funds, and
Fiscal Year 2003 services with Fiscal Year 2004/2005 EPM funds. OUST officials did not
realize that, consistent with Title 31, U.S. Code, Section 1552, EPM funds available elsewhere in


                                                       2

the Agency should have been identified before using future year appropriations to pay for
services rendered in prior years. OUST initiated a modification in October 2005 to correct this
issue by identifying available EPM funds and then transferring expenses between fiscal years to
enable it to properly pay the invoices.

OUST staff indicated they do not regularly monitor the Agency’s financial systems to determine
the status of obligated funds on its contracts. However, OUST queries the Agency’s financial
systems for the grants that it manages. OUST staff claimed that no one from EPA's Financial
Management Center told them they could use the Financial Data Warehouse to run such queries
for contracts.

Recommendations
We recommend that the Director, Office of Underground Storage Tanks:

   1.	 Have staff regularly query EPA’s financial systems to monitor the status of funds
       obligated to OUST contracts so that they can deobligate and recertify funds when
       appropriate.

   2. 	 Direct staff to not use future year appropriations to pay for services rendered in prior
        years.

   3.	 Require the Project Officer to attend training in the proper use of appropriations.

Agency Comments and OIG Evaluation
OUST concurred with our recommendations and agreed to monitor the status of its funds
obligated to contracts on a monthly basis and to provide direction and training to its staff. We
consider the Agency’s planned actions to be sufficient. The full text of EPA’s response is in
Appendix A.




                                                 3

                                                                                       Appendix A

                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460
                                        Mail Code 5401G




                                                                    OFFICE OF
                                                           SOLID WASTE AND EMERGENCY
                                                                     RESPONSE


February 14, 2006

MEMORANDUM

SUBJECT:	 Office of Underground Storage Tanks Follow-up Review of
          Contract Administration

FROM: 	       Susan Parker Bodine/s/
              Assistant Administrator

TO:     	     Carl A. Jannetti
              Director, Contracts Audits


       This is in response to the Draft Followup Report: Office of Underground Storage Tanks
(OUST) Has Improved Contract Administration, But Further Action Needed, Assignment No.
2005-001469, dated January 18, 2006. We appreciate the opportunity to review the Report, and
we concur with the three recommendations contained in the report. Our specific comments can
be found in the attachment.

      If you have any questions regarding this response, please contact Cliff Rothenstein at
703-603-7163.

Attachments

cc: 	   Barry Breen, OSWER
        Renee Wynn, OSWER
        Johnsie Webster, OSWER
        Cliff Rothenstein, OUST
        Sammy Ng, OUST
        Judy Barrows, OUST
        Mark Barolo, OUST
        Lynn DePont, OUST




                                                 4

                                                                                        Attachment

Office of Underground Storage Tanks (OUST)’s Response to the Recommendations:

      1. 	 Have staff regularly query EPA’s financial systems to monitor the status of
          funds obligated to OUST contracts so that they can deobligate and recertify funds
          when appropriate.

          OUST concurs. OUST will monitor its obligated contracts’ status of funds using the
          Agency’s Financial Data Warehouse on a monthly basis so that it can be determined
          if funds need to be deobligated and recertified as appropriate.

      2. 	Direct staff to not use future appropriations to pay for services rendered in prior years.

          OUST concurs. OUST will direct staff to not use future appropriations to pay for
          services rendered in prior years.

      3. 	Require senior level managers and Project Officers to attend Contracts

          Management Manual training, as well as training in the proper use of 

          appropriations. 


        OUST concurs. OUST is already following this recommendation. OUST’s Deputy
        Office Director has oversight responsibility for contracts management. He is a
        certified Project Officer and has completed both the three-day Contracts Management
        Manual training and the one-day refresher Contracts Management Manual
        Recertification training course which is required every three years in order to maintain
        his contract management certification. Additionally, OUST’s two Division Directors
        and OUST’s Project Officer have completed similar training. (Please see the attached
        spreadsheet.)

        It should also be noted that all of OUST’s active contracts managers maintain their
        contracts certification with the three-year one-day recertification training.

        All OUST employees, including its Senior-level managers and Project Officer,
        received informal training from EPA’s Appropriations expert (from the Office of
        General Counsel) in May 2004 on the proper use of appropriations.




                                                5

                                                                            Appendix B


                                   Distribution
Office of the Administrator
Agency Followup Official
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Assistant Administrator, Office of Solid Waste and Emergency Response
Director, Office of Underground Storage Tanks
Director, Financial Management Division
Director, Office of Acquisition Management
Audit Followup Coordinator, Office of Solid Waste and Emergency Response
Inspector General




                                            6

